            versight

            eport

       EXTERNAL QUALITY CONTROL REVIEW OF THE
           DEFENSE CONTRACT AUDIT AGENCY



Report Number D-2000-6-010           September 27, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Evaluations

  To suggest ideas for or to request evaluations, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                 OAIG-AUD (ATTN: AFTS Evaluation Suggestions)
                    Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
APO                   Audit Policy and Oversight
CAS                   Cost Accounting Standards
DCAA                  Defense Contract Audit Agency
DCAAM                 DCAA Contract Audit Manual
FAO                   Field Audit Office
GAS                   Government Auditing Standards
OIG                   Office of the Inspector General
PCIE                  President’s Council on Integrity and Efficiency
                                                                     September 27, 2000




MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT: Evaluation Report on the External Quality Control Review of the
         Defense Contract Audit Agency (Report No. D-2000-6-010)


We are providing this report for your use and information.

Background. Government Auditing Standards (GAS) requires that each audit
organization have an external quality control review performed on its operations at least
every 3 years. The review determines whether the organization’s internal quality
control system is properly implemented and operating effectively to provide reasonable
assurance that established policies, procedures, and auditing standards are being
followed.

Objective. The objective of the evaluation was to summarize Office of the Inspector
General (OIG), DoD, oversight reports on the Defense Contract Audit Agency (DCAA)
and to determine whether, overall, DCAA audits during FYs 1997, 1998, and 1999
were conducted in compliance with the appropriate auditing standards and relevant
policies and procedures. Appendix A contains a discussion of the evaluation scope and
methodology.

Results. The 12 oversight reports on DCAA audit activities issued in FYs 1997, 1998,
and 1999, indicated no material, uncorrected noncompliances with applicable auditing
standards or audit policies and procedures. All deficiencies reported as a result of the
reviews are corrected or are scheduled to be corrected. Appendix B summarizes the
results, recommendations, and corrective actions related to those reviews.

DCAA Organization and Functions. DoD Directive 5105.36, “Defense Contract
Audit Agency,” dated June 9, 1965, established the DCAA as a separate organization
under the direction, authority, and control of the Under Secretary of Defense
(Comptroller/Chief Financial Officer).1 The DCAA primary mission is to perform
contract audits for DoD. In addition, DCAA is responsible for providing accounting
and financial advisory services regarding contracts and subcontracts to DoD
components that perform procurement and contract administration duties. DCAA may
also provide contract audit services for non-DoD Federal organizations on a
reimbursable basis. Organizationally, DCAA is divided into a headquarters, five
regions, and a field detachment. DCAA audit activities for FYs 1997, 1998, and 1999
are summarized in the following table.




1
    Formerly the Assistant Secretary of Defense (Comptroller).



                                                      1
                                          FY 1997                 FY 1998                 FY 1999

No. of Reviews                         51,094                 48,272                   44,064
Value of Reviews                       $179.1 Billion         $183.2 Billion           $164.4 Billion
Net Savings                            $3.7 Billion           $2.2 Billion             $2.6 Billion
No. of Contractors                     10,500                 9,450                    9,000
Total Operating Costs                  $371.5 Million         $370.3 Million           $357.8 Million


DCAA Audit Policy and Procedures. DCAA audit guidance is contained in the
DCAA Contract Audit Manual 7640.1 (DCAAM). Specifically, DCAAM Section
2-103, “Government Auditing Standards,” states that GAS are applicable to DCAA
audits. DCAA ensures compliance with the applicable auditing standards throughout its
audit planning and performance activities by providing audit guidance in the DCAAM
supplemented by standard audit programs and internal control matrices. DCAA
Headquarters also notifies the regions and the field of new or revised audit guidance on
a more current basis by issuing Memorandums for Regional Directors that are
incorporated into a revised DCAAM.

DCAA Quality Control Program. Before FY 1998, the DCAA internal quality
control function was decentralized throughout the organization. Responsibility for
ensuring performance of quality audits rested mostly at the field audit office (FAO)
level with oversight by regional management. Quality measures included use of
standard audit programs, reviews by headquarters program managers of specific types
of audits, required regional audit manager review of audits meeting certain criteria,
standard checklists for reviewing audit reports, and regional oversight of certain audits.
In October 1998, DCAA established a Quality Assurance Division at headquarters and
quality assurance teams at the regional offices and the field detachment.

Oversight Approach. As the cognizant oversight agency, the OIG, DoD,2 conducts
oversight evaluations of DCAA audits on a continual, ongoing basis that, taken as a
whole, met the intent of an external quality control review under GAS 3.33. In
FYs 1997 through 1999, we performed 12 oversight reviews on DCAA audit functions
and operations. Our reviews covered a reasonable cross section of the types of major
audit activities performed by DCAA during this time period. During FY 1997 through
FY 1999, APO conducted evaluations of DCAA audits in areas including:
compensation, cost accounting standards (CAS), pension and insurance costs, defective
pricing reviews, indirect costs, labor costs, price proposals, requests for equitable
adjustment, incurred cost audits, and audits of special access programs. The main
objective of each review was to assess DCAA compliance with appropriate audit
policies, procedures, and auditing standards. Each APO review of a DCAA audit
included a review of the audit report and the adequacy of the audit program,
supervisory guidance and review, and the working papers. These are key elements of a
2
    Audit Policy and Oversight (APO), is the office within the OIG, DOD, responsible for reviewing
    DCAA audits and reviews. During part of the time period covered by this summary report, APO was
    organizationally placed under the Assistant Inspector General for Policy and Oversight. In January
    1998, APO became a part of the Office of the Assistant Inspector General for Auditing. The oversight
    authority is derived from Section 8(c)(6), Title 5, U.S.C., Appendix 3, the Inspector General Act of
    1978, as amended.




                                                     2
Appendix A. External Quality Control Review
            Approach

Scope and Methodology
    We conducted our summary evaluation by reviewing each of our 12 oversight
    and evaluation reports issued during FYs 1997, 1998, and 1999 to determine the
    deficiencies relating to compliance with auditing standards or audit policies and
    procedures were noted during the reviews. We also verified the status of the
    agreed-to corrective actions documented in the Audit Report Tracking System
    maintained by Audit Followup and Technical Support Directorate, Office of the
    Assistant Inspector General for Auditing. In some cases, to verify estimated
    completion dates of planned actions, we contacted DCAA Headquarters staff.

Scope and Coverage of APO Reviews of DCAA
    GAS 3.34 provides specific requirements that the external quality control review
    should meet. APO oversight reviews of DCAA audit activities met all of the
    requirements.

           •   Qualification of Reviewers. Reviewers should be qualified and
               have current knowledge of the type of work to be reviewed and the
               applicable auditing standards. The APO personnel that conducted the
               evaluations of DCAA audits were all senior auditors or evaluators
               with experience in performing or reviewing contract audits. The
               evaluators and supervisors maintained the currency of their
               knowledge by performing evaluations, reviewing contract audit
               policies, commenting on proposed acquisition regulation revisions
               and exposure drafts on auditing standards, and attending pertinent
               training courses. (GAS 3.34a)
           •   Independence of Reviewers. Reviewers should be independent of
               the audit organization being reviewed, its staff, and its auditees
               whose audits are selected for review. APO is organizationally
               independent from DCAA because the Inspector General, DoD, is
               appointed by the President, confirmed by the Senate, and reports the
               results of its audits to the Secretary of Defense and Congress.
               DCAA is under the cognizance of the Under Secretary of Defense
               (Comptroller/Chief Financial Officer). In addition, APO personnel
               submitted Standard Form 450, “Financial Disclosure Report,” and
               any appropriate recusal or notification memorandums regarding
               financial interests in Defense contractors. Therefore, the APO
               personnel were free of any personal impairments and were
               considered to be organizationally independent of DCAA and Defense
               contractors audited by DCAA. (GAS 3.34b)

           •   Professional Judgement of Reviewers. Reviewers should use sound
               professional judgment in conducting and reporting the results of the


                                        4
           review. The APO personnel assigned as reviewers followed
           applicable Federal and DoD guidance in performing the evaluations.
           Adherence to policies and procedures ensures that sound professional
           judgment is used during the evaluations. The deficiencies identified
           in the individual reports have been corrected either as recommended
           in the reports or as agreed-to by the OIG, DoD, and DCAA. The
           implementation of corrective actions supports the soundness of the
           evaluation findings. See Appendix B for a discussion of each report.
           (GAS 3.34c)

       •   Approach. Reviewers should use one of two approaches to selecting
           audits for review depending on an organization’s audit workload.
           The selection should include audits that represent a reasonable cross
           section of the audits conducted in accordance with GAS or it should
           include a reasonable cross section of all the organization’s audits with
           at least one or more of the selected audits being performed in
           accordance with GAS. Individual APO evaluations generally
           covered one specific type of audit conducted by DCAA and reviewed
           selected specific audit assignments at various FAOs for that type of
           audit. The evaluations done during the period covered a reasonable
           cross section of the audits that DCAA performed. The various audit
           areas were selected based on prior coverage, audit leads, and other
           risk assessment procedures. The majority of DCAA audits are
           financial related. Examples include incurred cost audits, forward
           pricing reviews, internal control system reviews, terminations,
           equitable adjustment claims, CAS audits, defective pricing reviews,
           and preaward accounting surveys. DCAA also performs operations
           audits, which are considered performance audits, however, they are a
           very small part of the overall DCAA work load. (GAS 3.34d)

       •   Scope of Review. The external review should include a review of
           the audit report; working papers; other necessary documentation,
           such as correspondence; and interviews with the appropriate
           professional staff. The scope of the APO evaluation of each DCAA
           audit included a review of working papers, correspondence, and
           audit work from other assignments referenced in the working papers.
           Each APO evaluation of a DCAA audit included a review of the audit
           report and the adequacy of the audit program, supervisory guidance
           and review, and the working papers, key elements of a quality
           control program. During its evaluations, APO met with DCAA
           supervisors and audit staff at headquarters, the regional offices, and
           the FAOs. (GAS 3.34e)

Written Report. A written report should be issued communicating the results
of the external quality control review. APO issued a written report for each
evaluation performed that described the results of the evaluation and made
appropriate recommendations. See Appendix B for a summary of the APO
reports issued during FY 1997 through FY 1999. (GAS 3.34f)




                                    5
Appendix B. Summaries of Audit Policy and
            Oversight Reports
           APO has issued 12 reports on the oversight of DCAA. The reports can be
           accessed at http://www.dodig.osd.mil/pubs.

           Report No. PO 99-6-006, “Followup on Congressional Inquiry Regarding a
           Defense Contractor,” July 30, 1999. The report stated that the one allegation
           relating to DCAA was unsubstantiated. The president of the Defense
           contractor3 had alleged, among other things, that a DCAA report contained false
           and intentionally misleading information. The report contained no
           recommendations to DCAA.

           Report No. PO 99-6-004, “Defense Contract Audit Agency Compensation
           Audits,” March 30, 1999. The report stated that DCAA needed to improve its
           audit performance, reporting, and guidance on compensation system reviews.
           In addition, DCAA regional offices used significantly different approaches,
           procedures, and guidance to implement the compensation program. Also,
           DCAA needed to take more aggressive measures to identify and spread best
           practices.

           The report recommended that DCAA revise guidance to clarify the terms and
           the established time period for questioning unreasonable compensation costs and
           that DCAA ensure the spread of best practices among the regions for a more
           consistent and efficient approach to compensation system reviews and
           calculation of reasonable compensation. DCAA partially concurred or
           nonconcurred with the recommendations. During mediation, APO and DCAA
           agreed on actions DCAA could take to satisfy the intent of the
           recommendations. DCAA has either taken the actions or has planned a date for
           their completion.

           Report No. PO 99-6-001, “Defense Contract Audit Agency Audits of
           Contractor Compliance with Cost Accounting Standards,” January 11,
           1999. The report stated that DCAA audits of contractor compliance with CAS
           added value and consistency to the negotiation of cost-based contracts.
           However, DCAA could improve procedures for auditing contractor compliance
           with CAS. We identified three conditions that required management action.
           First, audit planning procedures needed improvement. Second, the FAOs were
           not adequately documenting testing for compliance with CAS 401, “Consistency
           in Estimating, Accumulating, and Reporting Costs,” and CAS 402,
           “Consistency in Allocating Costs Incurred for the Same Purpose.” Finally,
           DCAA guidance allowed for a negative assurance opinion when reporting on
           contractor compliance with CAS.

           Prior to the issuance of the final report, DCAA provided an action plan to
           correct most of the deficiencies identified during the review. The report also
           recommended that DCAA require regional and FAO managers to assign

3
    The contractor name was omitted because action may still be ongoing.



                                                     6
responsibilities for maintaining and updating data in the DCAA management
information system. The DCAA planned actions also met the intent of the
recommendation.

Report No. PO 98-6-016, “Defense Contract Audit Agency Audits of
Indirect Costs at Major Contractors,” August 6, 1998. The report stated that
DCAA established a systematic approach to auditing indirect costs that included
assessing audit risk, auditing the contractor’s internal control system,
performing mandatory annual audit procedures, and using additional audit
guidance for selecting and reviewing specific costs. However, DCAA did not
always perform sufficient transaction testing in conjunction with the internal
control system review. In addition, DCAA audits of indirect costs for
allowability, allocability, and reasonableness often did not provide sufficient in-
depth analysis to conclude that the costs were acceptable for reimbursement.
DCAA also did not always properly recognize or recommend disallowance of
the costs that Federal statutes and regulations define as expressly unallowable
for reimbursement under Government contracts. Finally, DCAA did not always
properly identify and report that expressly unallowable costs were subject to the
penalty provisions of Federal statutes.

The report recommended that DCAA issue revised guidance on performing and
completing audits of internal control systems for charging indirect costs;
establishing more stringent reliability parameters for statistical sampling
applications, determining when to use judgmental sampling to review claimed
costs, implementing an auditing standard revision on due professional care and
professional skepticism, identifying and reporting unallowable costs subject to
penalties, and recommending assessment of penalties. DCAA nonconcurred
with some of the recommendations. However, DCAA implemented corrective
actions that satisfied the intent of all the recommendations.

Report No. PO 98-6-013, “Defense Contract Audit Agency Reviews of Price
Proposals,” June 18, 1998. The report stated that the scope of audit services
was appropriate for large proposals when contractors were required to submit
cost or pricing data. However, when pricing information was already available,
auditors performed many unnecessary audits on low-risk proposals.

The report recommended that DCAA amend guidance to require auditors to
discuss pricing requests with the initial requester, clarify guidance on
performing low-risk pricing reviews, notify requester when requested
information is readily available, and emphasize the use of telephone rate
procedures when pricing information is already available. DCAA partially
concurred with the recommendations but subsequently implemented corrective
actions that satisfied the intent of all recommendations.

Report No. PO 97-057,”Defense Contract Audit Agency Support to Special
Access Programs,” September 30, 1997. The report stated that overall, the
deficiencies identified in a previous oversight report have generally been
corrected. For one of the special access programs that required audit support,
DCAA did not provide for uninterrupted audit services when the agency decided
to transfer audit responsibility to the Field Detachment. In addition, audit
support needed improvement for three of the seven programs that showed audit
activity.


                                     7
The report recommended that DCAA enforce procedures for performing labor
floor checks on restricted special access programs and provide additional
guidance for reviewing the physical observations of materials charged to
Government contracts. In addition, the report recommended that the DCAA
Field Detachment strengthen its procedures to ensure that an adequate
complement of auditors is dedicated to each special access program; working
papers are emphasized in training and made part of the quality control review
program; and auditors are assisted when “access” problems are encountered.
DCAA nonconcurred with the majority of the recommendations. During
mediation, actions were agreed to that satisfied the intent of the
recommendations. DCAA has implemented the agreed-to actions.

Report No. PO 97-056, “Defense Hotline Allegations Concerning Contract
Audit Recommendations,” September 29, 1997. The report found that DCAA
management failed to properly address unsatisfactory conditions reported by its
FAO at the Supervisor of Shipbuilding, Conversion, and Repair, Newport
News, Virginia. In addition, DCAA lacked adequate management controls to
ensure that unsatisfactory conditions encountered by its FAOs were resolved in
a timely manner.

The report recommended that DCAA revise its audit guidance to strengthen and
clarify procedures for addressing unsatisfactory conditions involving
Government operations. DCAA nonconcurred with the recommendations.
However, during mediation, APO agreed to revise the recommendations and
DCAA agreed to update its guidance accordingly. DCAA has issued the revised
guidance.

Report No. PO 97-046, “Evaluation Report on Defense Contract Audit
Agency Audits of Requests for Equitable Adjustment,” September 24, 1997.
The report stated that DCAA audits of contractor Requests for Equitable
Adjustment were generally effective. Auditors screened the Requests for
Equitable Adjustments for adequate supporting documentation and indicators of
fraud and referred for investigation those suspected of fraud, corruption, or
unlawful activity. However, many audit reports did not include needed
information on significant events that led to the contractor’s request for
adjustment.

The report recommended that DCAA issue audit guidance to: require auditors
to request the Federal Acquisition Regulation required list of significant contract
events from contracting officers when the list is not included as part of the audit
request; incorporate the guidance in the standard audit programs as part of the
preliminary screening of audit requests; and emphasize the requirement to
include a Chronology of Significant Events as an audit report appendix. DCAA
concurred with all recommendations and revised the appropriate audit guidance
accordingly.

Report No. PO 97-032, “Evaluation of Defense Contract Audit Agency
Sampling Initiative of Incurred Cost Proposals on Low Risk Contractor,”
June 27, 1997. The report stated that DCAA effectively implemented the
sampling initiative of incurred cost proposals for low-risk contractors with
annual dollar volume of $5 million or less. However, DCAA subsequently
issued revised guidance that significantly departed from the plan that APO


                                     8
            reviewed. Therefore, the new DCAA procedures were not in compliance with
            the OIG, DoD, Audit Policy Memorandum 5, “Performance and Reporting of
            Nonmajor Incurred Cost Audits,” April 23, 1992, (as revised).

            The report recommended that DCAA include a statement, in final rate
            agreement letters for years closed by desk reviews that the Government can
            recover expressly unallowable costs through CAS and debt collection procedures
            without adjusting the final rates if the first audit of a subsequent fiscal year
            determines that expressly unallowable costs are claimed and questioned in that
            audit. In addition, the report recommended that DCAA rescind the audit
            guidance that did not comply with Audit Policy Memorandum No. 5. DCAA
            nonconcurred with the recommendations. However, after mediation and
            additional review, DCAA and APO agreed that no additional actions were
            needed to implement the intent of the recommendations.

            Report No. PO 97-019, “Allegations of Inappropriate Action on Contracting
            Issues by Government Officials [at a Defense Contractor4],” May 20, 1997.
            While none of the original allegations directly involved DCAA, the report stated
            that DCAA did not comply with audit guidance while conducting a pension plan
            review. In addition, deficiencies were identified in the audit management and
            coverage of a specific defective pricing audit. The DCAA audit office also did
            not perform the required estimating system reviews or all the scheduled
            defective pricing audits from 1991 to 1994 at this location.

            The report recommended that the regional director obtain quarterly
            accomplishment reports on the programmed defective pricing and estimating
            system survey audits at the Defense contractor for FY 1996 and 1997. In
            addition, DCAA should ensure that sufficient resources are allocated to allow
            completion of all required defective pricing reviews, re-emphasize to all FAOs
            the availability of technical assistance at the regional offices and Headquarters,
            and establish procedures to identify defecting pricing audits incomplete for more
            than 1 year. DCAA nonconcurred with the recommendations; however, in
            response to the final report, DCAA proposed alternative actions that met the
            intent of the recommendations. DCAA has taken the agreed to corrective
            actions.

            Report No. PO 97-013, “Evaluation of DoD Oversight of Defense
            Contractor Insurance and Pension Plans,” March 28, 1997. The report
            stated that the DCAA performs limited reviews of insurance and pension
            programs due to limitations imposed by the Defense Federal Acquisition
            Regulations Supplement. The report recommended that DCAA should direct
            auditors to comply fully with the GAS and Federal Acquisition Regulations on
            CAS administration. DCAA concurred with the recommendation and issued the
            appropriate guidance.

            Report No. PO 97-008, “Evaluation on the Defense Contract Audit Agency
            Audits of Major Contractor Labor Cost,” February 28, 1997. The report
            stated that DCAA has sound policies and procedures for performing labor
            audits; assessing labor related internal controls, including contractor employee
            awareness and ethics programs; and issuing comprehensive audit reports on
4
    The contractor’s name was omitted because action is still ongoing.



                                                       9
labor and labor related matters, including reports on computer general and labor
application controls. However, labor floor check audits did not fully adhere to
the GAS on due professional care, planning and supervision, and examination of
evidence.

The report recommended that DCAA advise its field auditors of the three
recurring audit deficiencies identified in the report and reemphasize the need to
exercise due professional care in planning, performing, and supervising labor
floor checks. In addition, DCAA should revise the audit guidance and training
to enhance and clarify the criteria for selecting locations for which floor checks
are necessary; to communicate the audit procedures to be followed when
contractor employees selected for verification are unavailable; and to emphasize
the proper performance of reconciling the observations with the accounting
distribution of labor charges. DCAA concurred with the recommendations and
implemented corrective action by revising the appropriate audit guidance and
training.




                                    10
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller/Chief Financial Officer)

Other Defense Organizations
Director, Defense Contract Audit Agency




                                          11
Evaluation Team Members

The Deputy Assistant Inspector General for Audit Policy and Oversight, Office
of the Assistant Inspector General for Auditing, DoD, prepared this report.

Patricia A. Brannin
Wayne C. Berry
Diane H. Stetler
Catherine M. Schneiter
Ernest R. Taylor
